              OFFICE OF
                                             OFFICE OF

              INSPECTOR                      INSPECTOR
              GENERAL                        GENERAL
                                             POSTAL REGULATORY
                                             COMMMISSION
              UNITED STATES POSTAL SERVICE




          Cost of Appeals for Closing
         Postal Service-Operated Retail
                   Facilities

                             Audit Report




                                              July 12, 2012
Report Number CI-AR-12-005
                                                           OFFICE OF
                                                           INSPECTOR GENERAL
                                                           POSTAL REGULATORY
                                                           COMMISSION




                                                                                         July 12, 2012
                                            Cost of Appeals for Closing Postal Service-Operated Retail
                                                                                             Facilities
                                                                         Report Number CI-AR-12-005



BACKGROUND:
This was a joint audit between the              Department needs to process each
Offices of Inspectors General (OIG) of          appeal are about $1,365 and 15 hours,
the U.S. Postal Service and the U.S.            respectively. The PRC OIG’s review
Postal Regulatory Commission (PRC).             determined the costs and staff hours the
Since fiscal year (FY) 2009, the Postal         PRC needs to process an appeal
Service has increased its efforts to            ranges from $1,806 to $2,496 and from
optimize the retail network. As a result,       19 to 29 hours, respectively.
the number of final determinations to
discontinue retail operations has               In addition, the Postal Service OIG
increased from 118 to 362 (307 percent)         found the Law Department did not
from FY 2010 to FY 2011.                        consistently track attorney and staff
Consequently, appeals of final                  hours spent on individual appeals. The
determinations also increased from six          Law Department recognizes the need
to 103 (1,766 percent) for the same             for additional resources to handle the
period. On May 9, 2012, the Postal              estimated workload and, accordingly,
Service announced a new strategy to             issued a statement of work to obtain
preserve post offices in rural America          support through contracting.
and achieve cost savings.
                                                Lastly, from July through November
Our objective was to assess the costs           2011, the Postal Service withdrew four
for the Postal Service and the PRC to           final determinations after appeals were
process, administer, and manage                 filed with the PRC. It did not disclose the
closure appeals for Postal Service-             factors that led to withdrawing its final
operated retail facilities. The Postal          determinations. The Postal Service OIG
Service Law Department (Law                     estimated the Postal Service could have
Department) is responsible for tracking,        realized cost savings of $5,460 if it
monitoring, and processing all retail           considered those facts before the final
facility closure appeal cases opened by         determinations.
the PRC. The PRC Office of General
Counsel is responsible for processing           WHAT THE OIGs RECOMMENDED:
and advising PRC commissioners on               Although the report does not contain
appeal cases. In addition, the PRC              recommendations, Postal Service
appoints a Public Representative to             management provided written
represent the interests of the public in        comments and the Postal Service OIG
each appeal.                                    consider them responsive. PRC
                                                management elected not to provide
WHAT THE OIGs FOUND                             written comments because there were
The Postal Service OIG estimated the            no recommendations.
average costs and staff hours the Law
July 12, 2012

MEMORANDUM FOR:           MARY ANN GIBBONS
                          GENERAL COUNSEL AND EXECUTIVE VICE PRESIDENT

                          DEAN J. GRANHOLM
                          VICE PRESIDENT, DELIVERY AND POST OFFICE
                          OPERATIONS

                          SHOSHANA GROVE
                          SECRETARY AND CHIEF ADMINISTRATIVE OFFICER,
                          U.S. POSTAL REGULATORY COMMISSION




FROM:                     David C. Williams
                          Inspector General, U.S. Postal Service

                          /s/ Jack Callender

                          Jack Callender
                          Inspector General, U.S. Postal Regulatory Commission

SUBJECT:                  Audit Report – Cost of Appeals for Closing
                          Postal Service-Operated Retail Facilities
                          (Report Number CI-AR-12-005)

This report presents the results of our joint audit with the U.S. Postal Regulatory
Commission (PRC) Office of Inspector General (OIG) of the cost of appeals for closing
Postal Service-operated retail facilities (Project Number 12YG003CI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael L. Thompson, director,
Planning, Innovation, and Optimization, at 703-248-2389, or me at 703-248-2100.

Attachments

cc: Commissioners, Postal Regulatory Commission
    Anthony F. Alverno
    James J. Boldt
    Corporate Audit and Response Management
Cost of Appeals for Closing                                                                                    CI-AR-12-005
Postal Service-Operated Retail Facilities




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Appeal Costs ................................................................................................................... 2

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objective, Scope, and Methodology ............................................................................ 5

Appendix B: Monetary Impact ......................................................................................... 7

Appendix C: Appeals Process Flowchart ........................................................................ 8

Appendix D: Management’s Comments ......................................................................... 9
Cost of Appeals for Closing                                                                               CI-AR-12-005
Postal Service-Operated Retail Facilities




Introduction

This report presents the results of a joint audit between the Offices of Inspectors
General (OIG) of the U.S. Postal Service and the Postal Regulatory Commission (PRC)
of the cost of appeals for closing Postal Service-operated retail facilities (Project
Number 12YG003CI000). The objective of this self-initiated audit was to assess costs
for the Postal Service and the PRC to process, administer, and manage closure and
consolidation appeals for Postal Service-operated retail facilities. This audit addresses
strategic, financial, and operational risks. See Appendix A for additional information
about this audit.

Since fiscal year (FY) 2009, the Postal Service has increased its efforts to optimize the
retail network. The Postal Service issued new discontinuance procedures and began
two national initiatives1 to consolidate offices by reviewing more than 7,200 Postal
Service-operated facilities for discontinuance opportunities.2 As a result, the number of
final determinations to discontinue retail operations has increased from 118 to 362
(307 percent) from FY 2010 to FY 2011. Consequently, appeals of the Postal Service’s
final determinations to the PRC have also increased (see Table 1). According to the
PRC’s public website, it received eight appeals between FYs 2007 and 2010 and 103
appeals in FY 2011. On May 9, 2012, the Postal Service announced a new strategy3 to
preserve post offices (POs) in rural America and achieve cost savings.

                        Table 1: Postal Service-Operated Facility Appeals

                                                 Number of                  Number of                Percentage
            Fiscal Year                          Closures4                   Appeals                 of Appeals
       2012 (as of 5/21/2012)                       537                        126                      23%
               2011                                 362                        103                      28%
               2010                                 118                         6                        5%
            2007–2009                               308                         2                        1%
    Source: The Postal Service’s Change Suspension Discontinuance Center System for the number of closures and
    the PRC’s public website for the number of appeals.



1
  Thirty-six hundred studies from the Stations and Branches Optimization and Consolidation Initiative, April 2009 and
3,652 studies from the Retail Access Optimization Initiative, July 2011.
2
  Under Postal Service policy, headquarters or field personnel may initiate a discontinuance study to examine the
continuation of a retail facility operation. A written proposal must be posted for 60 days at affected retail facilities. The
proposal must explain the services recommended as substitutes and the rationale that supports the proposal to
discontinue the retail facility operation, along with an invitation for written feedback from customers.
3
  The Postal Service’s new strategy consists of maintaining the existing PO, staffed by a Postal Service employee,
with modified retail hours to match customer needs. Access to the retail lobby and PO boxes will remain unchanged,
and the town’s ZIP Code and community identity will be retained. This new strategy complements existing options,
which include: 1) providing mail delivery by either rural carrier or highway contract route, 2) contracting with a local
establishment to create a Village PO, and 3) offering service from a nearby PO.
4
  Anyone served by the PO slated for the proposed closing may appeal to the PRC within 30 days of the Postal
Service’s final determination posting.



                                                              1
Cost of Appeals for Closing                                                                        CI-AR-12-005
PostalService-Operated Retail Facilities



Conclusion

The Postal Service OIG estimated the average costs and staff hours the Postal Service
Law Department (Law Department) needs to process each appeal are about $1,3655
and 15 hours, respectively. The PRC OIG’s review determined that the costs and staff
hours6 the PRC needs to process an appeal case range from $1,806 to $2,496 and 19
to 29 hours, respectively.

In addition, the Postal Service OIG found the Law Department should strengthen its
staff resource planning. This effort would support the organization’s retail network
optimization initiatives and help control administrative and appeal costs. Previously, the
Law Department did not have a plan to address the increased workload resulting from
appeals, because appeals have been historically low in number (anywhere from zero to
six per year). Also, the Law Department does not track attorney and staff hours spent
on individual appeals. The Law Department recognizes that it has insufficient staff
resources to handle the estimated workload and, accordingly, issued a statement of
work7 to obtain a litigation support contract with a not-to-exceed value of $xxxxxxxx for
1 year.8 In addition, the Law Department created appeals checklists and presentations
to train attorneys and staff and established an internal website to post training materials
and templates for pleadings.

Lastly, from July through November 2011, the Postal Service withdrew four final
determinations after appeals were filed with the PRC. The Postal Service did not
disclose the factors that led to withdrawing its final determinations. The Postal Service
OIG estimated the Postal Service could have realized cost savings of $5,460 if those
facts were considered before the final determinations.

Appeal Costs

The public has the right to appeal a PO closing decision9 to the PRC as stipulated in
federal law10 and Postal Service policy.11 Historically, there have been few PO closure

5
  The Postal Service OIG’s estimate was based on workhours tracked for two appeal cases on which the Law
Department used an average of 15 attorney workhours to process each appeal. Our estimates do not include other
Postal Service staff resources that might be required to process appeals. We calculated an hourly rate of $xx by
averaging the rate per hour of all attorneys handling appeals and adding fringe benefits (xx x $xx = $1,365).
6
  The PRC appeal costs and staff hours are limited to those of the Public Representation ,Office of General Counsel
and contract services. The PRC OIG estimates do not include other PRC staff resources that might be involved in
processing appeals.
7
  Attorney and paralegal hours are to be fixed at an hourly rate and paralegals will be paid time and a half for more
than 40 hours per week worked. The period of performance is 1 year from the first date of the contract with an option
for 2 additional years.
8
  At the time of our audit, a support contract was not executed.
9
  After consideration of customer comments, if warranted, the Postal Service might decide to proceed with a final
determination to discontinue the retail facility operation under study. Any such final determination is posted in the
affected retail facility for 30 days. For discontinuance actions associated with POs, customers may appeal the final
determination to the PRC. The PRC has up to 120 days to consider and decide an appeal.
10
   39 U.S.C. § 404(d).
11
   Handbook PO-101, Postal Service-Operated Retail Facilities Discontinuance Guide, January 2012.



                                                          2
Cost of Appeals for Closing                                                                       CI-AR-12-005
PostalService-Operated Retail Facilities


appeals, but the number has grown in the last year as the Postal Service has begun
closing more POs, stations, and branches.12 The increase in retail facility closures has
caused an increase in appeals (see Table 1). According to the PRC’s public
website, it received eight appeals between FYs 2007 and 2010. In FY 2011, the PRC
received 103 appeals, 83 (or 81 percent) of which were appealed in a 3-month period,
from July to September 2011. Previously, the Law Department did not have a plan to
address the increased workload for appeals because it historically ranged from zero to
six per year. The Law Department does not track attorney and staff hours spent on
individual appeals.

The Law Department recognizes that current staffing is insufficient to handle the
estimated appeals workload and issued a statement of work on September 28, 2011, to
obtain additional contract support to process appeals for a not-to-exceed contract value
of $xxxxxxx for 1 year. The Postal Service OIG estimated that each appeal could cost
the Postal Service $xxx13 if contractors process the appeals, compared to $1,365 if Law
Department employees process them. Although a contract to process appeals might be
cost effective, it does not include the Law Department’s costs to manage the contract
and its associated personnel. At the time of our audit, the Law Department had not
executed a contract. We are not making a recommendation because management took
corrective action during the review to address the issue identified.

The PRC OIG estimated that the costs and staff hours the PRC needs to process each
appeal range from $1,806 to $2,496 and between 19 and 29 hours, respectively, under
current practices. The cost range includes contract litigation services to augment the
appeals workload at a firm-fixed price per case.

After an appeal is filed with the PRC, the Law Department might determine that the
official record14 used to support the final determination is deficient or incomplete. As
such, the Postal Service submits a notice to the PRC to withdraw its final determination
to close the facility, and it remains in operation. From July through November 2011, the
Postal Service withdrew four final determinations after appeals were filed with the PRC.
The Postal Service OIG’s review of documents obtained from the PRC’s public website
showed that the basis for the four appeal petitions was the Postal Service’s failure to
consider community input and use of erroneous economic saving calculations. The
Postal Service did not disclose the factors that led to withdrawing its final
determinations; however, if it had considered those facts before making the final
determinations, the Postal Service could have realized cost savings of $5,460.15 See
Appendix B for the monetary impact.

12
   Classified stations and branches are staffed by Postal Service personnel under the administration of an
independent PO. Stations are located within and branches are located outside of the corporate limits of the city or
town in which the independent PO is located.
13
   We estimated the weighted average hourly rate for attorneys and paralegals from a potential temporary services
placement firm of $xxxxx (xx x $xxxxx = $xxx).
14
   All internal and external communications related to the discontinuance, including documents shared at the
community meeting or otherwise, must be placed in the administrative record.
15
   The cost savings of $5,460 represents Law Department staff resources and does not include other Postal Service
staff resources required to prepare the proposal for final determination decisions.



                                                         3
Cost of Appeals for Closing                                                    CI-AR-12-005
PostalService-Operated Retail Facilities




Management’s Comments

Postal Service management agreed with the findings and monetary impact in the report.
Management stated that, while the Law Department does not track attorney and staff
hours spent on individual appeals, they track and monitor all appeal cases opened by
the PRC. Management added that the Law Department manages workload and costs
by deferring attorney reviews of final determinations until the appeals stage.
Management believed that attorney reviews of all final determinations before posting
would significantly increase attorney workhours. Further, management stated that they
updated Handbook PO-101 through January 2012 and the period of contract support
performance is 1 year. Lastly, management believes that statements regarding the
Postal Service’s reasons for withdrawing appeals and contactors’ hourly rates and total
costs might be exempt from mandatory disclosure under the Freedom of Information
Act. See Appendix D for management’s comments in their entirety.

PRC management agreed with the findings and elected not to provide written comments
because there were no recommendations.

Evaluation of Management’s Comments

Although the report does not contain any recommendations, the Postal Service OIG
considers management’s comments responsive. With regard to management’s
comments on attorney review of all final determinations prior to posting, we
acknowledge that such action would increase attorney workhours. However, the intent
of the finding was to report the basis for appeal petitions to the PRC. We believe
thorough consideration of factors leading to final determinations to close retail facilities
by management would help control administrative and appeal costs. In addition, on
June 25, 2012, we clarified with Law Department management that the Postal Service
did not disclose the factors that led to withdrawing its final determinations. We have
considered management’s comments and edited the final report, where appropriate.




                                              4
Cost of Appeals for Closing                                                     CI-AR-12-005
PostalService-Operated Retail Facilities



                               Appendix A: Additional Information

Background

Federal law and Postal Service policy require a discontinuance process be followed
when Postal Service-operated retail facilities are under consideration for closure. The
Law Department is responsible for tracking, monitoring, and processing all retail facility
closure appeal cases opened by the PRC. The PRC Office of General Counsel is
responsible for processing and advising the PRC commissioners in appeal cases. In
addition, the PRC appoints a Public Representative to represent the interests of the
general public in each appeal proceeding. Once the final determination to discontinue a
retail facility is posted, the Postal Service must wait at least 60 days before proceeding
with the closure. Anyone served by the PO slated for the proposed closing may appeal
to the PRC within 30 days of the Postal Service’s final determination posting. When the
PRC receives an appeal, it establishes a case to support a review of the determination
made by the Postal Service and has up to 120 days to act on the appeal. The PRC may
dispose of an appeal in one of three ways:

        Affirm the Postal Service made its decision in accordance with the law;

        Remand the case to the Postal Service for reconsideration; or

        Dismiss the case for lack of jurisdiction, untimely filing, or withdrawal by either
        party.

The PRC may suspend the effectiveness of the final determination pending disposition
of the appeal. See Appendix C for a flowchart of this process.

Objective, Scope, and Methodology

Our objective was to assess the costs for the Postal Service and the PRC to process,
administer, and manage closure and consolidation appeals for Postal Service-operated
retail facilities. To accomplish this objective, the Postal Service OIG:

        Reviewed applicable policies, procedures, laws, and regulations and consulted
        with OIG counsel;

        Interviewed Postal Service officials;

        Reviewed and analyzed PRC appeal cases from FY 2007 to FY 2012; and

        Reviewed news articles related to retail facility closures and appeals.




                                                5
Cost of Appeals for Closing                                                                          CI-AR-12-005
PostalService-Operated Retail Facilities



The Postal Service OIG relied on the information obtained by the PRC OIG related to
PRC appeal costs and staff hours. While the Postal Service OIG did not test the
accuracy of the information, it was determined reliable for the purposes of this report.

The OIGs conducted this performance audit from July 2011 through July 201216 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusion based on our
audit objective. The OIGs believe that the evidence obtained provides a reasonable
basis for their findings and conclusion based on the audit objective. The OIGs
discussed their observations and conclusion with PRC and Postal Service management
on June 7, 2012, and June 19, 2012, respectively, and included their comments where
appropriate.

The Postal Service OIG relied on computer-generated data from the Postal Service’s
Change Suspension Discontinuance Center System.17 To validate the data, the Postal
Service OIG traced the appeal case documentation and compared the results to the
computer-generated data, and determined that the data were sufficiently reliable for the
purposes of this report.

Prior Audit Coverage

The OIGs have not performed prior audits or reviews related to the objective of this
audit.




16
   The review was suspended from July 26 through October 2, 2011, and from January 10 through April 23, 2012,
due to higher priorities.
17
   The Change, Suspension Discontinuance Center is a web-based application that standardizes and tracks retail
facility closures and consolidations, and provides management with greater visibility over discontinuance activities
enterprise-wide.



                                                           6
Cost of Appeals for Closing                                                                      CI-AR-12-005
PostalService-Operated Retail Facilities


                                    Appendix B: Monetary Impact


                 Finding                          Impact Category                         Amount

            Cost of Appeals                     Questioned Costs18                      $5,460.00

After an appeal is filed with the PRC, the Law Department might determine the official
record used to support the final determination to close a PO is deficient or incomplete.
As such, the Postal Service will submit a motion to the PRC to withdraw its final
determination to close the facility. As a result, the PRC dismisses the appeal and the
retail facility remains in operation. From July through November 2011, the Postal
Service withdrew four appeals with an average cost of $1,36519 each.




18
   Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, etcetera. May be
recoverable or unrecoverable and is usually the result of historical events.
19
   The average costs include the Law Department’s resources and do not include other Postal Service staff resources
that might be required to process appeals.



                                                         7
Cost of Appeals for Closing                                              CI-AR-12-005
PostalService-Operated Retail Facilities


                                           Appendix C: Appeals Process Flowchart




                                                             8
Cost of Appeals for Closing                                     CI-AR-12-005
PostalService-Operated Retail Facilities


                            Appendix D: Management’s Comments




                                            9
Cost of Appeals for Closing                     CI-AR-12-005
PostalService-Operated Retail Facilities




                                           10
